Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrants to the Township of Lower Merion, Pennsylvania Police Department
GR-70-00-013March 10, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Township of Lower Merion, Pennsylvania, Police Department (Lower Merion).  The purpose of the grants is to enhance community policing.  Lower Merion was awarded a total of $975,000 to hire 13 new police officers and $331,645 to redeploy the equivalent of 41.3 full-time officers to community policing. 
	
We reviewed Lower Merion's compliance with eight essential grant conditions. Lower Merion complied with five conditions, including budgeting for officers, local matching funds, hiring of officers, retention of officers, and performance of community policing activities.  We found weaknesses in three other areas as identified below.  As a result, we question $10,631 and recommend an additional $321,014 be put to better use.1

For the hiring grants, requests for reimbursements were not properly calculated, and for the MORE 95 grant, the grantee used costs estimates rather than actual costs to calculate reimbursements.
	For the redeployment grants, the grantee did not have a plan to track the redeployment of 41.3 full-time equivalents (FTEs).
	The Department Initial Report was incorrect.  Two of the three Annual Reports and two of the three Officer Progress Reports were not completed in a timely manner.  Four of the twenty-nine Financial Status Reports were not submitted.  Of the remaining twenty-five, sixteen were not submitted timely and all of the AHEAD/UHP reports (fifteen) were inaccurate.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.




Footnote
1. The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.